Department of Health and Human Services
                    OFFICE OF
               INSPECTOR GENERAL




  THE MINNESOTA MEDICAID
PROGRAM COULD SIGNIFICANTLY
  LOWER PAYMENT RATES FOR
 SELECTED DURABLE MEDICAL
   EQUIPMENT AND SUPPLIES


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      January 2014
                                                      A-05-13-00015
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 The Minnesota Medicaid program could have saved an estimated $2.27 million on
 selected durable medical equipment items by obtaining pricing similar to Medicare’s
 Competitive Bidding Program.

WHY WE DID THIS REVIEW

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 mandated the
Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Competitive Bidding
Program (the Competitive Bidding Program). The Competitive Bidding Program sets lower
payment rates than conventional Medicare payment rates for selected durable medical equipment
and supplies (DME items) while ensuring beneficiary access to quality items and services.

In previous audits, we identified an estimated $16.5 million that the Illinois and Ohio Medicaid
programs could have saved on diabetic test strips if they had obtained pricing similar to the
pricing that Medicare obtained through the Competitive Bidding Program or by establishing a
manufacturer rebate program. Test strips are just 1 of 339 DME items covered by the
Competitive Bidding Program. Because we identified potential savings for test strips in Illinois
and Ohio, we conducted this review of 42 selected DME items, including test strips in
Minnesota.

Our objective was to determine whether the Minnesota Medicaid program could achieve cost
savings for the 42 selected DME items by obtaining pricing similar to the pricing that Medicare
obtained through the Competitive Bidding Program.

BACKGROUND

The Minnesota Department of Human Services (State agency) administers the Minnesota
Medicaid program. The State agency allows eligible providers in the Minnesota Medicaid
program to bill for DME items. The State agency reimburses fee-for-service providers the lesser
of the dollar amount of the submitted charge or the Medicaid maximum payment rate.
Approximately one-third of the Minnesota Medicaid population received care under a fee-for-
service arrangement.

HOW WE CONDUCTED THIS REVIEW

Our review covered Medicaid payments for the 42 selected DME items from January 1, 2012,
through December 31, 2012 (audit period). We limited our review to 65,081 paid lines of
service with reimbursement rates between the average Medicare competitive bidding area (CBA)
payment rate and Minnesota’s Medicaid maximum payment rate, which represented 92 percent
of all lines of service and 92 percent of payments for the audit period. The majority of the
remaining claims were associated with enhanced rate modifiers that provided a reimbursement in
excess of the Medicaid maximum payment rate. We compared Minnesota’s Medicaid payment
rates for DME items with the average Medicare CBA payment rates for the same products in the
nine CBAs under the first round of bidding.


Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)      i
WHAT WE FOUND

The Minnesota Medicaid program could have saved an estimated $2.27 million by establishing a
competitive bidding program for DME items similar to pricing that Medicare obtained through
its Competitive Bidding Program. We determined that average Medicare payment rates obtained
through competitive bids for the 42 selected DME items were significantly lower than
Minnesota’s average Medicaid payment rates.

WHAT WE RECOMMEND

We recommend that the State agency establish competitive bidding that functions similarly to
Medicare’s Competitive Bidding Program for the purchase of the 42 selected DME items, which
could have resulted in cost savings of approximately $2.27 million for the 1-year period we
reviewed.

STATE AGENCY COMMENTS AND OUR RESPONSE

In written comments on our draft report, the State agency concurred with our finding that
Minnesota could achieve lower rates of payment for selected DME items. However, the State
agency did not concur entirely with the recommended approach to lowering the rates associated
with the categories of DME. The State agency is in the process of implementing or
recommending alternative methods to achieve lower rates within the categories of DME noted in
the audit. Although we support the use of alternative methods, we have not reviewed the State
agency’s plan to lower payment rates and take no position as to its adequacy and effectiveness.




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)   ii
                                                     TABLE OF CONTENTS


INTRODUCTION .................................................................................................................1

           Why We Did This Review. ........................................................................................1

           Objective ....................................................................................................................1

           Background ................................................................................................................1
                 The Minnesota Medicaid Program: How Payment Rates Are Determined
                   for Durable Medical Equipment Items .......................................................1
                 Obtaining Lower Rates of Payment: How the Federal Government
                   Has Obtained Lower Prices for Durable Medical Equipment Items...........2

           How We Conducted This Review..............................................................................2

FINDING ...............................................................................................................................3

           Medicare Competitive Bidding Program Rates Significantly Lower
           Than Minnesota’s Average Medicaid Payment Rates for Selected Items of
           Durable Medical Equipment ......................................................................................3

           Potential Cost Savings From Competitive Bidding ...................................................3

RECOMMENDATION .........................................................................................................5

STATE AGENCY COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE .........................................................6

APPENDIXES

           A: Audit Scope and Methodology ............................................................................7

           B: State and Federal Requirements for
               Durable Medical Equipment Purchases .............................................................9

           C: Potential Cost Savings for the Five Selected
               Durable Medical Equipment Product Categories ..............................................10

           D: Potential Cost Savings for the 42 Selected
               Durable Medical Equipment Items ....................................................................12

           E: State Agency Comments ......................................................................................15




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)                                                iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 mandated the
Medicare Durable Medical Equipment, Prosthetics, Orthotics, and Supplies Competitive Bidding
Program (the Competitive Bidding Program). The Competitive Bidding Program sets lower
payment rates than conventional Medicare payment rates for selected durable medical equipment
and supplies (DME items) while ensuring beneficiary access to quality items and services.

In previous audits, we identified an estimated $16.5 million that the Illinois and Ohio Medicaid
programs could have saved on diabetic test strips if they had obtained pricing similar to the
pricing that Medicare obtained through the Competitive Bidding Program, or by establishing a
manufacturer rebate program. 1 Test strips are just 1 of 339 DME items covered by the
Competitive Bidding Program. Because we identified potential savings for test strips in Illinois
and Ohio, we conducted this review of 42 selected DME items, including test strips, in
Minnesota.

OBJECTIVE

Our objective was to determine whether the Minnesota Medicaid program could achieve cost
savings for the 42 selected DME items by obtaining pricing similar to the pricing that Medicare
obtained through the Competitive Bidding Program.

BACKGROUND

The Minnesota Medicaid Program: How Payment Rates Are Determined for
Durable Medical Equipment Items

The Minnesota Department of Human Services (State agency) administers the Minnesota
Medicaid program. The State agency allows eligible providers in the Minnesota Medicaid
program to bill for DME items. 2 The State agency reimburses fee-for-service providers the
lesser of the dollar amount of the submitted charge or the Medicaid maximum payment rate that
is set by the State agency. The State’s Medicaid maximum payment rates are limited to the
Medicare fee schedule amount or if no amount has been established in the Medicare fee schedule
then an amount set by the State agency based on usual and customary charges. 3 Approximately
one-third of the Minnesota Medicaid population received care under a fee-for-service
arrangement.



1
 Illinois Significantly Reduced Medicaid Costs for Home Blood-Glucose Test Strips But Could Achieve Additional
Reductions (A-05-12-00009, issued May 2, 2013), and Ohio Medicaid Costs for Home Blood-Glucose Test Strips
Could Be Reduced by Approximately 50 Percent (A-05-11-00098, issued March 13, 2012).
2
    Minnesota Administrative Rule 9505.0310.
3
    Minnesota Administrative Rule 9505.0445(S). For information see Appendix B.


Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)                    1
State Medicaid programs may apply to the Centers for Medicare & Medicaid Services (CMS) for
a waiver to establish special procedures for the purchase of medical devices through competitive
bidding or through another process if the State assures, in the certification required, and CMS
finds that adequate services or devices are available to beneficiaries under the special
procedures. 4

Obtaining Lower Rates of Payment: How the Federal Government Has Obtained
Lower Prices for Durable Medical Equipment Items

Under Medicare’s Competitive Bidding Program, prices for selected DME items sold in
specified competitive bidding areas (CBA) are determined by suppliers’ bids rather than a fee
schedule. The Competitive Bidding Program was intended to reduce beneficiary out-of-pocket
expenses and create savings for taxpayers and the Medicare program while ensuring that high-
quality health care products and services are available to beneficiaries.

The first round of bidding closed in December 2009, and competitive bidding became
operational as of January 2011 in nine CBAs. The first round of bidding included 339 DME
items, identified by Healthcare Common Procedure Coding System (HCPCS) codes and
descriptors established by CMS from the following 9 product categories:

      •    oxygen supplies and equipment;

      •    standard power wheelchairs, scooters, and related accessories;

      •    complex rehabilitative power wheelchairs and related accessories—Group 2;

      •    mail-order diabetic supplies;

      •    enteral nutrients, equipment, and supplies;

      •    continuous positive airway pressure devices (CPAPs), respiratory assist devices (RADs),
           and related supplies and accessories;

      •    hospital beds and related accessories;

      •    walkers and related accessories; and

      •    support surfaces—Group 2 mattresses and overlays (Miami-Fort Lauderdale-Pompano
           Beach, Florida, CBA only).

HOW WE CONDUCTED THIS REVIEW

Our review covered Medicaid payments for the 42 selected DME items associated with 5 product
categories from January 1, 2012, through December 31, 2012 (audit period). We excluded
product categories associated with oxygen supplies and equipment, standard power wheelchairs,
4
    Social Security Act § 1915(a)(1)(B), 42 CFR § 431.51(d), and 42 CFR § 431.54(d).


Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)        2
complex rehabilitative power wheelchairs, and support surfaces. The oxygen supplies and
equipment were excluded because of inconsistent rates due to volume purchase contracts in
Minnesota; power wheelchairs were excluded due to on-going national reviews of the product
category; and support surfaces were excluded because the CBA rates were only applicable for
Miami, Florida. We limited our review to 65,081 paid lines of service with reimbursement rates
between the average Medicare CBA payment rate and Minnesota’s Medicaid maximum payment
rate, which represented 92 percent of all lines of service and 92 percent of payments for the audit
period. The majority of the remaining claims were associated with enhanced rate modifiers that
provided a reimbursement in excess of the Medicaid maximum payment rate. We compared
Minnesota’s Medicaid payment rates for DME items with the average Medicare CBA payment
rates for the same products in the nine CBAs under the first round of bidding. 5

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology. Appendix B contains State and
Federal requirements for purchases of DME items.

                                                    FINDING

MEDICARE COMPETITIVE BIDDING PROGRAM RATES SIGNIFICANTLY
LOWER THAN MINNESOTA’S AVERAGE MEDICAID PAYMENT RATES FOR
SELECTED ITEMS OF DURABLE MEDICAL EQUIPMENT

The Minnesota Medicaid program could have saved an estimated $2.27 million by establishing a
competitive bidding program for DME items similar to pricing that Medicare obtained through
its Competitive Bidding Program. We determined that average Medicare payment rates obtained
through competitive bids for the 42 selected DME items were significantly lower than
Minnesota’s average Medicaid payment rates.

POTENTIAL COST SAVINGS FROM COMPETITIVE BIDDING

For the 42 selected DME items that we reviewed, the State agency reimbursed providers
$6.83 million for DME items with payment rates between the average Medicare CBA payment
rate and Minnesota’s Medicaid maximum payment rate during the audit period. We estimate
that the State agency’s cost could have been reduced to $4.56 million for the selected DME items
if it had used a competitive bidding program to obtain pricing similar to Medicare’s Competitive
Bidding Program.


5
  Round one of the Medicare competitive bidding program did not include a CBA in Minnesota. Therefore, we used
the average of the nine CBA payment rates for our comparison. The CBAs were geographically dispersed and had
large populations similar to the Minneapolis/St. Paul metropolitan area. The largest total variation in payment rates
between the nine CBAs was approximately 16 percent.


Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)                       3
Table 1 summarizes the potential cost savings achievable through the use of competitive bidding
for five product categories of the selected DME items. See Appendix C for a detailed list by
HCPCS of potential cost savings for the five product categories.

       Table 1: Potential Minnesota Medicaid Cost Savings Through Competitive Bidding


                                                        Medicare CBA                                Average
                                   MN Medicaid                                  Potential
       Product Category                                 Costs (Average                              Savings
                                      Costs                                    Cost Savings
                                                        of Nine CBAs)                              Percentage


    Diabetic supplies                   $1,458,133              $591,953            $866,180           59%

    Enteral nutrients,
                                         3,546,080              2,577,313             968,767          27%
    equipment, and supplies
    CPAPs, RADs, and related
                                         1,647,256              1,262,155             385,101          23%
    supplies and accessories
    Hospital beds and related
                                             83,774                61,438              22,336          27%
    accessories
    Walkers and related
                                             93,077                66,533              26,544          29%
    accessories

     Total                              $6,828,320            $4,559,392          $2,268,928           33%


Table 2 details Minnesota’s weighted average Medicaid payment rates and the weighted average
Medicare CBA payment rates in 2011 for five product categories of the selected DME items. 6
See Appendix D for the complete list of Minnesota Medicaid and Medicare CBA average
payment rates for the 42 selected DME items comprising the five product categories.




6
 Weighted averages were used to account for the wide variation in prices and quantities for HCPCS within a
specific product category. The weighted average was based on the payment rate for all claims within the product
category.


Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)                     4
 Table 2: Weighted Average of Payment Rates for Durable Medical Equipment Items by
                                 Product Category

                                            Weighted Average                Weighted Average
           Product Category                MN Medicaid Payment            Medicare CBA Payment
                                                  Rate                             Rate
   Diabetic supplies                                 $34.99                          $14.21

   Enteral nutrients,
                                                        1.93                            1.40
   equipment, and supplies
   CPAPs, RADs, and related
                                                      53.81                           41.23
   supplies and accessories
   Hospital beds and related
                                                     107.82                           79.07
   accessories

   Walkers and related accessories                    69.51                           46.69


Table 3 illustrates three examples of potential cost savings achievable through a reduction of
Minnesota’s Medicaid payment rate to the average Medicare CBA payment rate.

                Table 3: Examples of Potential Cost Savings Using the Average
                     Medicare Competitive Bidding Area Payment Rates

                           Minnesota’s          Medicare CBA
        Product
                            Average             Payment Rate       Units              Potential Cost
      Description
                            Medicaid           (Average of Nine Reimbursed               Savings
       (HCPCS)
                          Payment Rate             CBAs)
  Blood glucose
  test strips                  $35.97                $14.62              39,956          $853,197
  (A4253)
  Enteral feeding
  supply kit                    10.86                   7.50            155,072            520,299
  (B4035)

  CPAP
                                70.23                 58.23                5,391            64,699
  (E0601)


                                        RECOMMENDATION

We recommend that the State agency establish competitive bidding that functions similar to
Medicare’s Competitive Bidding Program for the purchase of the 42 selected DME items, which
could have resulted in cost savings of approximately $2.27 million for the 1-year period we
reviewed.



Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)          5
                            STATE AGENCY COMMENTS AND
                       OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency concurred with our finding that
Minnesota could achieve lower rates of payment for selected DME items. However, the State
agency did not concur entirely with the recommended approach to lowering the rates associated
with the categories of DME. The State agency is in the process of implementing or
recommending alternative methods to achieve lower rates within the categories of DME noted in
the audit. Although we support the use of alternative methods, we have not reviewed the State
agency’s plan to lower payment rates and take no position as to its adequacy and effectiveness.
The State agency’s comments appear in their entirety as Appendix E.




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)   6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered Medicaid payments for 42 selected DME items for the audit period. We
limited our review to 65,081 paid lines of service with reimbursement rates between the average
Medicare CBA payment rate and Minnesota’s Medicaid maximum payment rate, which
represented 92 percent of all lines of service and 92 percent of payments for the audit period.
The majority of the remaining claims were associated with enhanced rate modifiers that provided
a reimbursement in excess of the Medicaid maximum payment rate. Medicaid paid claims that
were less than the average Medicare CBA payment rate may not have been comparable to the
DME items under the Competitive Bidding Program and were excluded from review.

Of the 339 DME items comprising the first round of bidding under the Medicare Competitive
Bidding Program, the 42 items that we selected were associated with 5 product categories. We
excluded product categories associated with oxygen supplies and equipment, standard power
wheelchairs, complex rehabilitative power wheelchairs, and support surfaces. Additionally, we
excluded DME items that were (1) included with bundled services under Minnesota’s Medicaid
fee schedule, (2) not covered by the Minnesota Medicaid program, or (3) reimbursed above
Minnesota’s Medicaid maximum payment rate or below the average Medicare CBA payment
rate.

We did not review the overall internal control structure of the State agency. We limited our
internal control review to obtaining an understanding of the State agency’s pricing and
reimbursement policies related to the 42 selected DME items.

We performed our fieldwork in Saint Paul, Minnesota, in January 2013.

METHODOLOGY

To accomplish our audit objective, we:

    •   identified the nine Medicare CBAs and all DME competitive bid payment rates;

    •   selected five product categories for review and excluded four product categories
        associated with oxygen supplies and equipment, standard power wheelchairs, complex
        rehabilitative power wheelchairs, and support surfaces;

    •   selected 42 DME items associated with 5 Medicare Competitive Bidding Program
        product categories and covered by the Minnesota Medicaid program;

    •   obtained and reviewed a list of Minnesota Medicaid payments for the 42 selected DME
        items for the audit period;

    •   calculated the average Medicaid payment rate for the 42 selected DME items;



Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)   7
    •   calculated the average of the nine Medicare CBA payment rates;

    •   compared the Minnesota Medicaid program payment for each DME claim with the
        average Medicare CBA payment for the same DME item during the review period;

    •   determined the number of payments with reimbursement rates between the average
        Medicare CBA payment rate and Minnesota’s Medicaid maximum payment rate for the
        42 selected items;

    •   calculated the amounts that the State agency could have paid if the Minnesota Medicaid
        program had used the average CBA payment rate; and

    •   compared the amount that the State agency reimbursed providers with the average CBA
        payment rate to determine the approximate dollar amount that Minnesota could have
        saved.

Although we did not independently verify the reliability of the Medicaid paid claims data, we
discussed the data with State agency officials, sorted paid claims to identify variations in
payment rates, and compared the total number of DME claims to other State Medicaid programs
in making a subjective determination of data reliability. In our opinion, the data obtained from
the State agency was sufficiently reliable for this audit.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)      8
                 APPENDIX B: STATE AND FEDERAL REQUIREMENTS FOR
                     DURABLE MEDICAL EQUIPMENT PURCHASES

MINNESOTA REQUIREMENTS FOR
DURABLE MEDICAL EQUIPMENT PURCHASES

Minnesota Administrative Rule 9505.0310 allows the State agency to permit eligible providers in
the Minnesota Medicaid program to bill for DME items.

Minnesota Administrative Rule 9505.0445(S) allows the State agency to reimburse providers the
lesser of the submitted charge, the Medicare fee schedule amount for medical supplies and
equipment, or the amount determined as appropriate. If Medicare has not established a
reimbursement amount for an item of medical equipment or a medical supply, then the medical
assistance payment shall be based upon the 50th percentile of the usual and customary charges
submitted to the department for the item or medical supply for the previous calendar year minus
20 percent. For an item of medical equipment or a medical supply for which no information
about usual and customary charges exists for a previous calendar year payments shall be based
on the manufacturer’s suggested retail price minus 20 percent.

FEDERAL REQUIREMENTS FOR
DURABLE MEDICAL EQUIPMENT PURCHASES

Medicaid Durable Medical Equipment

Section 1915(a)(1)(B) of the Social Security Act (the Act) and requirements established in
42 CFR § 431.51(d) and 42 CFR § 431.54(d) allow the Medicaid agency to establish special
procedures for the purchase of medical devices through a competitive bidding process or
otherwise if the State assures, in the certification required under section 431.51(d), and CMS
finds that adequate services or devices are available to beneficiaries under the special procedures.

Medicare Durable Medical Equipment

Section 1834(a) of the Act provides the requirements for the DME fee schedule payment
methodology. Medicare generally pays for most medical equipment and supplies on the basis of
fee schedules. Pursuant to 42 CFR § 405.502(a), the law allows for flexibility in the
determination of reasonable charges to accommodate reimbursement to the various ways in
which health services are furnished and charged for. The criteria for determining what charges
are reasonable include the prevailing charges in the locality for similar services. The Medicare
Prescription Drug, Improvement, and Modernization Act of 2003 7 mandated that CMS establish
the Competitive Bidding Program for selected durable medical equipment, prosthetics, orthotics,
and supplies categories by January 1, 2011, in competitive bidding areas. Round 1 of the
Competitive Bidding Program was implemented on January 1, 2011, for nine product categories
in nine competitive bidding areas.



7
    P.L. No. 108-173, section 302, amending Social Security Act § 1847.


Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)     9
       APPENDIX C: POTENTIAL COST SAVINGS FOR THE FIVE SELECTED
           DURABLE MEDICAL EQUIPMENT PRODUCT CATEGORIES


                                             MN              Average
    Product                                                              Potential              Savings
                         HCPCS             Medicaid         Medicare
    Category                                                            Cost Savings              %
                                            Costs           CBA Costs
                         A4253             $1,437,354          $584,157    $853,197               59
                         A4256                  4,096             2,058        2,038              50
Diabetic
                         A4258                  3,151             1,045        2,106              67
supplies
                         A4259                 13,532             4,693        8,839              65
                         Total             $1,458,133          $591,953    $866,180               59
                         B4034                112,032            73,466       38,566              34
                         B4035              1,683,339         1,163,040      520,299              31
                         B4036                 96,199            65,984       30,215              31
                         B4082                  5,625             4,515        1,110              20
                         B4088                 24,022            20,302        3,720              15
                         B4149                168,522           128,725       39,797              24
Enteral                  B4150                454,085           332,160      121,925              27
nutrients,
                         B4152                232,370           181,747       50,623              22
equipment, and
supplies                 B4153                434,133           360,770       73,363              17
                         B4154                 51,556            37,772       13,784              27
                         B4155                 54,316            43,786       10,530              19
                       B9002 (NU)              42,335            29,778       12,557              30
                       B9002 (RR)             184,111           133,838       50,273              27
                         E0776                  3,435             1,430        2,005              58
                         Total             $3,546,080        $2,577,313    $968,767               27




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)          10
                                              MN             Average
    Product                                                              Potential              Savings
                         HCPCS             Medicaid         Medicare
    Category                                                            Cost Savings              %
                         (con’t)             Costs          CBA Costs
     (con’t)                                                              (con’t)               (con’t)
                                            (con’t)           (con’t)
                         A4604                  81,611           67,925       13,686              17
                         A7030                 194,297          144,460       49,837              26
                         A7031                  41,067           31,430        9,637              23
                         A7032                  16,486           12,166        4,320              26
                         A7033                   5,631            4,239        1,392              25
                         A7034                 135,948           97,536       38,412              28
CPAPs, RADs,             A7035                  80,927           51,901       29,026              36
and related
                         A7037                  78,839           45,918       32,921              42
supplies and
accessories              A7038                  26,714           20,392        6,322              24
                         A7039                   8,313            5,252        3,061              37
                         A7046                  51,033           39,976       11,057              22
                         E0470                 137,198          117,620       19,578              14
                         E0471                 225,893          182,344       43,549              19
                       E0562 (NU)              103,601           71,173       32,428              31
                       E0562 (RR)               81,081           55,905       25,176              31
                         E0601                $378,617         $313,918      $64,699              17
                         Total             $1,647,256        $1,262,155    $385,101               23
                         E0255                  25,571           21,522        4,049              16
Hospital beds            E0260                  54,496           37,282       17,214              32
and related
                         E0303                   3,707            2,634        1,073              29
accessories
                         Total                 $83,774          $61,438      $22,336              27
                         E0135                  11,652            8,273        3,379              29
                         E0143                  61,261           43,580       17,681              29
Walkers and              E0149                  10,067            7,293        2,774              28
related
                         E0155                   3,724            2,549        1,175              32
accessories
                         E0156                   6,373            4,838        1,535              24
                         Total                 $93,077          $66,533      $26,544              29




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)          11
         APPENDIX D: POTENTIAL COST SAVINGS FOR THE 42 SELECTED
                   DURABLE MEDICAL EQUIPMENT ITEMS

                                                        Minnesota
                                                                     Medicare    Potential
                                                        Medicaid
                                                                  CBA Payment Cost Savings
HCPCS            Product Brief Description               Average
                                                                  Rate (Average  (per Unit
                                                        Payment
                                                                  of Nine CBAs) Reimbursed)
                                                          Rate
 B9002         Enteral nutrition infusion pump          $1,144.19          $804.82          $339.37

 E0562                Humidifier, heated                   261.62            179.73             81.89

                  Respiratory assist device
 E0471                                                     419.10            338.30             80.80
                           (rental)
                  Hospital bed, heavy duty,
 E0303                                                     264.80            188.11             76.69
                     extra wide (rental)

 E0149          Walker, heavy duty, wheeled                193.60            140.25             53.35

A7030                   Full face mask                     164.10            122.01             42.09

                 Hospital bed, semi-electric
 E0260                                                     117.45             80.35             37.10
                           (rental)
                 Enteral nutrition infusion
 B9002                                                     110.71             80.48             30.23
                       pump (rental)

A7034                   Nasal interface                    102.14             73.28             28.86

 E0143            Walker, folding, wheeled                  92.96             66.13             26.83

                   Respiratory assist device
 E0470                                                     161.60            138.54             23.06
                           (rental)
                   Blood glucose test strips
A4253                                                       35.97             14.62             21.35
                        (per 50 pack)

 E0135             Walker, folding, pick-up                 70.19             49.84             20.35

              Tubing used with positive airway
A7037                                                       35.18             20.49             14.69
                      pressure device

A7031                Face mask interface                    60.39             46.22             14.17

                    Hospital bed, variable
 E0255                                                      85.52             71.98             13.54
                       height (rental)




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)           12
                                                         Minnesota
                                                                      Medicare    Potential
                                                         Medicaid
                                                                   CBA Payment Cost Savings
HCPCS             Product Brief Description               Average
                                                                   Rate (Average  (per Unit
                                                         Payment
                                                                   of Nine CBAs) Reimbursed)
                                                           Rate
             Headgear used with positive airway
 A7035                                                     $34.58            $22.18             $12.40
                      pressure device
                Continuous airway pressure
 E0601                                                      70.23             58.23             12.00
                      device (rental)

 A4258         Spring powered device for lancet             17.90              5.94             11.96

 A4604           Tubing with heating element                55.82             46.46              9.36

                   Cushion for use on nasal
 A7032                                                      35.00             25.83              9.17
                       mask interface

 E0776                  IV pole (rental)                    15.69              6.53              9.16

               Wheel attachment, rigid pick-up
 E0155                                                      27.38             18.74              8.64
                          walkers

 E0562            Humidifier, heated (rental)               26.06             17.97              8.09

 A4259              Lancets (per 100 pack)                  12.08              4.19              7.89

                    Pillow for use on nasal
 A7033                                                      24.48             18.43              6.05
                    cannula type interface

 B4088          Gastrostomy/jejunostomy tube                33.22             28.08              5.14

               Normal, low and high calibrator
 A4256                                                        9.87             4.96              4.91
                      solutions/chips

 A7039               Filter, non-disposable                 12.79              8.08              4.71

 E0156              Seat attachment, walker                 19.55             14.84              4.71

 A7046          Water chamber for humidifier                16.97             13.29              3.68

                  Enteral feeding supply kit,
 B4035                                                      10.86              7.50              3.36
                           pump fed




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)            13
                                                         Minnesota
                                                                      Medicare    Potential
                                                         Medicaid
                                                                   CBA Payment Cost Savings
HCPCS             Product Brief Description               Average
                                                                   Rate (Average  (per Unit
                                                         Payment
                                                                   of Nine CBAs) Reimbursed)
                                                           Rate
 B4082         Nasogastric tubing without stylet           $15.00            $12.04             $2.96

                   Enteral feeding supply kit,
 B4036                                                        7.44             5.10             2.34
                           gravity fed
                   Enteral feeding supply kit,
 B4034                                                        5.67             3.72             1.95
                           syringe fed

 A7038                  Filter, disposable                    3.97             3.03             0.94

               Enteral formula, manufactured
 B4149                                                        1.47             1.12             0.35
                  blenderized natural foods
                Enteral formula, nutritionally
 B4154                                                        1.13             0.83             0.30
             complete for special metabolic needs
                Enteral formula, nutritionally
 B4153                                                        1.74             1.45             0.29
                           complete
                Enteral formula, nutritionally
 B4155                                                        0.88             0.71             0.17
                incomplete modular nutrients
                Enteral formula, nutritionally
 B4150                                                        0.63             0.46             0.17
                complete with intact nutrients
                Enteral formula, nutritionally
 B4152                                                        0.51             0.40             0.11
                 complete, calorically dense




Minnesota Medicaid Payments for Select Durable Medical Equipment and Supplies (A-05-13-00015)           14
                            APPENDIXE: STATE AGENCY COl.VIl.II.IENTS


                              \ ·.
                                ..,

          Mituu:sola Depa.run<:lll of Human Service5



          November21 , 2013



          Department ofHealth and Human Services
          Office ofAudit Services, Region V
          Attn: Sheri L. Fulcher, Regional Inspector General for Audit Services
          233 North Michigan Avenue, Suite 1360
          Chicago, illinois 60601

          Re : Draft Audit Report Number A-05-13-00015

          Dear Ms. Fulcher:

          Thank you for providing an opportunity to comment on draft audit report A-05-11 -00013 titled "The
          Minnesota Medicaid Program Could SignijiCQJtt/y Lower PaymentRates for SelectedDurable Medical
          EquipmentandSupplies." We appreciate the thoughtful, detailed approach takEn by yom audit staff in
          reviewing this topic. We concm with the finding that Minnesota could achieve lower rates, however, we
          do not concm entirely with the recommended approach to lowering the rates associated with the
          categories ofdmable medical equipment (DME). Minnesota is in the process ofimplementing or
          recommending alternative methods to achieve lower rates within the categories ofDME noted in the
          audit.

          Not swprisingly, one of the largest categories for savings is diabetic testing supplies. Our agency
          received legislative authority last legislative session to establish a preferred diabetic testing supplies
          program that allowed us to obtain competitive bids from manufacturers and collect rebates on diabetic
          testing strips. We have received those bids and are finalizing the list ofselected manulilcturers.
          Through this program, beginning January I, 2014, we ,.ill achieve a per unit rate for test strips that is
          below the Medicare rate. We believe this program aligos with the audit recommendations and
          accomplishes the same goals through a slightly different mechanism.

          With respect to the other categories ofDME included in the audit, Minnesota's cmrent Medicaid rates
          for DME and supplies are generally capped at the Medicare rate. The Medicare competitive bid rate
          would have become the Medicaid rate for recipients living in the Twin Cities melropolitan area (the
          Medicare competitive bid area) on July I, 2013; however the state legislature amended the law to delay
          implementation of the Medicare competitive bid rate for one year. Minnesota DHS is cmrently
          examining potential proposals using the Medicare competitive bid rates as a benclunad- for the rate in
          the Twin Cities Medicare competitive bid area. The result ofsuch proposals would be to pay either the
          Medicare competiti'"' bid rate or some designated percentage above the Medicare rate set by the
          legislature. We believe this methodology would allow the Minnesota Medicaid program to leverage the
          Medicare competiti\<e bid process, but also pennits the flexibility to make appropriate adjustments to the
          Medicare rate when neoessary to preserve access and accommodate utilization patterns unique to the




Mirnesota Meticaid P~mertsfor Select Durable Medical Eq1ipment and Stpplies (A-05-13-00015)                            15
                                       Minne5ot.l Department of Human S.nices 

                                   Response to U.S. Department of Human Senices 

                           Office of Inspector General Draft Report Number A-65-13..00015 





          Medicaid population. Because the fee-for-service rate applies to a relatively small proportion of
          Medicaid recipients, a Medicaid specific competitive bidding process may not achieve the desired
          results if the volume of services is not high enough to attract vendors to provide services at a
          significantly lower rate . For example, the combined total payments of$176,851 for hospital beds and
          walkers and related accessories under the cwrent Medicaid rates may not represent a large enough
          volume to encourage competitive bids. By l)ing our Medicaid rates to the Medicare competitive bid
          rates , we can inco1p0rate an element of "what the marl:et will bear", but also acknowledge that the
          population and utilization upon which the Medicare competitive bid rate was established differs from
          that of Medicaid.

          We are committed to continuing om efforts to examine and implement strategies that promote cost
          effectiveness. Minnesota's Medicaid program has used volume purchase contracts to lower rates
          associated with oxygen, eyeglasses, and hearing aids with a great deal ofsucoess. These contracts have
          been j oined by Medicaid programs in other states and other health care payers within Minnesota. We
          believe the preferred diabetic testing supplies program and our proposal to use the Medicare competitive
          bid rates in Mirmesota as a benchmarl: for our Medicaid rates can accomplish results consistent with the
          recommendations of this audit.

         If you have any questions, comments or concerns about our response, please contact Gary L, Johnson,
         Director of Internal Audits, at 651431-3623 or through e-mail at Gary.L.1ohnson@state.mn.us .

          Sincerely,



          Lucinda E. Jesson
          O>mmissioner




Mirnesota Meticaid P~mertsjor Select Durable Medical Eq1ipment and Stpplies (A-05-13-00015)                          16
